RED CANOE CREDIT UNION
VISA PLATINUM REWARDS CREDIT CARD ACCOUNT AGREEMENT
This VISA Platinum Rewards Credit Card Account Agreement (“Agreement”) and the Account Disclosures accompanying this
Agreement will govern your VISA Platinum Rewards Credit Card and account (“Account”) issued by Red Canoe Credit Union (“Credit
Union”). In this Agreement, the words "you," "your," "yours," "applicant," and "Borrower" mean any person who signs the application
for this Account, any joint obligor, guarantor, authorized user, or the person whose name is embossed on the Card. The words "we,"
"us," "our," and "Credit Union" mean Red Canoe Credit Union. The word "Card" means any one or more credit cards issued under this
Account. If you sign an application for this Account or sign or use any Card or PIN, or allow others to use the Card or PIN, you
and they will have accepted this Agreement just as if you and they signed it, and you and they, jointly and severally, will be
bound by the following terms and conditions which will govern this Account.
1. YOU PROMISE TO PAY. You promise to pay us all amounts, plus any Interest Charges, which arise from use of the Card or
Account by you or any other person, and to be jointly and severally liable with such a person, unless such other person does not have
actual, implied, or apparent authority for such use, and you received no benefit from the use. You promise to pay us either by direct
payment or by automatic transfers from shares or by payroll deduction.
2. ACCOUNT ACCESS. You must sign the Card to use it. Once you have signed the Card, you can use it to buy or lease goods,
services, or insurance wherever the Card is honored, up to the full amount of your Credit Line. You may use your Account to get cash
advances from us. You may also use your Card to get a cash advance from participating financial institutions and to access your line
of credit at automatic teller machines (“ATMs”) within the VISA network or any other ATMs. Balance transfers are treated as
purchases. The maximum cash advance limit is 100% of your credit limit.
3. CREDIT LINE. If we approve your application, this Agreement will constitute a revolving line of credit for an amount which will be
the Credit Line under your Account. We will advise you of the amount of your Credit Line. That amount will be the maximum amount
you may have outstanding at any one time. You agree not to attempt to obtain more credit than the amount of your Credit Line.
However, if you temporarily exceed your Credit Line, you agree to repay the excess immediately, even if we have not yet billed you.
Obtaining such credit does not increase your Credit Line. We retain the right to increase or decrease your Credit Line at any time.
Any increase or reduction in the amount of your Credit Line will be shown on your monthly statement or by separate notice together
with any changes in the applicable Minimum Monthly Payments. Your eligibility for this Credit Line is determined by our loan policy
and may be terminated at our sole discretion, without demand or notice. You may close your Credit Line at any time by notifying us in
writing and returning all Cards cut in half. If you terminate this Agreement or if we terminate or suspend your credit privileges, the
provisions of this Agreement and your liability hereunder shall otherwise remain in full force and effect until you have paid us all sums
due us under this Agreement and returned all Cards.
4. MINIMUM MONTHLY PAYMENT. We will mail you a statement every month if your Account has a balance. You agree that you will
pay each month not less than the minimum monthly payment on or before the closing date. The minimum monthly payment will be 3.0% of
your outstanding balance (“New Balance”) or $25, whichever is greater. If your outstanding balance is $25 or less, you agree to pay the
balance in full. You may pay in full for all your purchases and cash advances each month, or you may repay in monthly installments. We
can accept late payments or partial payments, or checks, drafts, or money orders marked “payment in full” without prejudice to our rights
under this Agreement, which are hereby explicitly reserved. A credit posting from a merchant or reversal of fees does not constitute a
minimum payment. The minimum monthly payment may be allocated at the Credit Union’s discretion to pay off lower rate balances, such
as promotional offers, before higher rate balances, such as cash advances or purchases. Payments in excess of the minimum monthly
payment will be allocated first to higher rate balances, as applicable. From time to time, we may allow you to skip your minimum monthly
payment due. If you choose to skip that payment, Interest Charges will continue to accrue in accordance with this Agreement. Payments
received at: Red Canoe Credit Union Payment Center, PO Box 3020, Longview, WA 98632, on or before 5:00 PM Pacific Time on any
business day will be credited to your Account as of that date; payments received by mail at that address after 5:00 PM Pacific Time or on a
weekend will be posted to your Account as of the next business day.
5. SECURITY INTEREST. By signing your application, to secure your Account, you granted us a purchase money security interest
under the Washington Uniform Commercial Code in any goods you purchase through your Account. If you default, we will have the
right to recover any of these goods that have not been paid for through application of your payments in the manner described in
Section 4. In addition, you granted us a security interest in all your shares and deposits, present and future, and all accounts (except
Individual Retirement Accounts and Keogh Accounts) with the Credit Union to secure your Account and agree, upon default, the Credit
Union may apply all that is secured to pay any amounts due under this Agreement, without further notice to you. You further agree
that collateral securing other loans with the Credit Union (except loans secured by real property) also secures this Account.
6. PERIODIC STATEMENTS. Each month, if your outstanding balance exceeds $1, we will send you a statement showing new
purchases, cash advances, payments, and credits made to your Account during the billing period, your Previous Balance, your "Total New
Balance," any Interest Charge, and any other charges. Your statement also will identify the remaining Credit Line available and the
Minimum Monthly Payment you must make for that billing period and the date it is due. For statement verification purposes, you agree to
retain copies of transaction slips resulting from each purchase, each advance, and other transaction on your Account. Unless you notify
us of a billing error as described below, you accept your monthly statement as an accurate statement of your Account with us.
7. CIRCUMSTANCES UNDER WHICH AN INTEREST CHARGE WILL BE IMPOSED. The total outstanding balance of purchases
and cash advances in the Account on the closing date of a billing period, including any Interest Charge will be shown on the Periodic
Statement for that billing period as the "New Balance."
a. Cash Advances. An Interest Charge will be imposed on cash advances from the date each cash advance is made. There is
no time period within which to pay to avoid a periodic Interest Charge on cash advances.
b. Purchases. Your due date is approximately 25 days after the close of each billing period. An Interest Charge will be imposed on
the portion of purchases included in the New Balance that is not paid by the due date. This “grace period” allows you to avoid an Interest

Charge on purchases for a billing period. However, if you do not pay the New Balance for purchases within the grace period, your Interest
Charge will accrue on any unpaid purchase transactions from the first day of the billing period in which the payment is due.
8. METHOD USED TO DETERMINE THE BALANCE ON WHICH THE INTEREST CHARGE MAY BE COMPUTED AND AMOUNT
OF INTEREST CHARGE. The Credit Union figures the Interest Charge on your Account by multiplying the "Average Daily Balance" of
purchases and cash advances for your Account (including current transactions) by the Daily Periodic Rate, and then we multiply the
result by the number of days in the billing period. To get the "Average Daily Balance" we take the beginning balance of your Account
each day, add any new purchases or cash advances, and subtract any payments or credits, unpaid Interest Charge and unpaid late
charges. This gives us the daily balance. Then, we add up all the daily balances for the billing period and divide the total by the
number of days in the billing period. This gives us the "Average Daily Balance." To get the “Daily Periodic Rate,” we divide the Annual
Percentage Rate in effect for the billing period by 365.
9.

PERIODIC RATE AND CORRESPONDING ANNUAL PERCENTAGE RATE.

a. Standard Rates. The Annual Percentage Rate(s) and corresponding Daily Period Rate(s) that are used to compute the
Interest Charge for your Account are based upon your credit qualification and are disclosed in the Account Disclosure accompanying
this Agreement and each monthly billing statement.
b. Introductory Rates. At our discretion, we may offer you an introductory or promotional Annual Percentage Rate for your
Account. Any introductory or promotional Annual Percentage Rate will be subject to the terms of the offer and this Agreement,
including but not limited to the Penalty APR described below. We will provide you with information on the offer, including the time
period the introductory or promotional Annual Percentage Rate is in effect in the Account Disclosure accompanying this Agreement or
in other materials that we send to you about the offer after you receive your Credit Card.
c. Penalty APR. The Daily Periodic Rate and Annual Percentage Rate may increase if your minimum payment has not been
received within 60 days after the due date for such payment, in which case we may increase the Annual Percentage Rate for your
entire balance to 19.90% (“Penalty APR”). We will send you advance written notice that your Annual Percentage Rate will be
increasing. Following implementation of the Penalty APR, if you make your payments on time for six (6) consecutive months, the
Penalty APR will terminate and the prevailing variable Annual Percentage Rate will apply.
10. CONDITIONS UNDER WHICH OTHER CHARGES MAY BE IMPOSED. You agree to pay the following fees and charges on your
Account.
a.

Late Fee. If we do not receive your minimum payment within 3 days of the due date, you agree to pay a late fee of $25.

b. Copying Fee. We may charge you $13 for each VISA draft copy you request for your Account. If the request relates to a
billing error and we determine that a billing error was made, any photocopying charges will be refunded.
c. Returned Item Fee. If any check or draft we receive from you as payment for any amount you owe to us is returned to us
unpaid, you agree to pay a returned item fee of up to $25.
d. ATM Fee. If you use an ATM to obtain a cash advance and the ATM is not operated by us, you may be charged an ATM
surcharge by the ATM operator or an ATM network utilized for such a transaction. The ATM surcharge may be charged to your
Account if you complete the transaction.
e. Attorney's Fees and Costs. If you default on any part of this Agreement, you agree to pay us all costs to collect your
Account, including court costs and reasonable attorney fees whether or not there is a lawsuit, and fees on any appeal and fees for
bankruptcy proceedings, appeals, and any post-judgment collection services, if applicable. These fees and costs may be added to
your Account balance and will bear interest at the Annual Percentage Rate in effect at that time.
11. CONDITIONS OF CARD USE. The use of your Card and Account are subject to the following conditions:
a. Use. Your Card and Account may be used only for valid and lawful purposes. You may not use your Card (i) to make
Purchases or obtain Cash Advances for any illegal transaction, or (ii) for any internet or online gambling transactions. If you use your
Card for any illegal or prohibited transaction, this Agreement also applies to such transaction and you agree to pay any and all
amounts related to such transaction pursuant to the terms of this Agreement. We may, in our sole discretion, restrict the use of or
terminate your Card if we notice excessive use of your Card or other suspicious activities or if we reasonably believe the Card is or has
been used for one or more illegal or prohibited transactions.
b. Ownership of Cards. Any Card or other credit instrument or device which we supply to you is our property and must be
returned to us, or to any person whom we authorize to act as our agent, or to any person who is authorized to honor the Card,
immediately according to instructions. The Card may be repossessed at any time in our sole discretion without demand or notice. You
cannot transfer your Card or Account to another person.
c. Honoring the Card. We may decline to honor any transaction for any reason. Neither we nor merchants authorized to honor
the Card will be responsible for the failure or refusal to honor the Card or any other credit instrument or device we supply to you. If a
merchant agrees to give you a refund or adjustment, you agree to accept a credit to your Account in lieu of a cash refund.
d. Currency Conversion/International Transaction Fee. Purchases and cash advances made in foreign countries will be billed to
you in U.S. dollars. The currency conversion rate for international transactions as established by VISA International, Inc. is a rate selected
by VISA from the range of rates available in wholesale currency markets for the applicable central processing date, which rate may vary
from the rate VISA itself receives, or the government-mandated rate in effect for the applicable central processing date. In addition, you
will be charged an International Transaction Fee of 1% of the transaction amount for any card transaction made in a foreign country.
e. Notices and Payments. All notices will be sent to your address as shown in the application. You agree to advise us
promptly if you change your mailing address. All payments should be mailed to us at the remittance address shown on your monthly
statements. Payments received at that address will be credited to your Account as of the date received. Written notices and inquiries
to us must be sent to:

Red Canoe Credit Union
PO Box 3020
Longview, WA 98632
(800) 562-5611
f. Personal Identification Number. If we issue you a Personal Identification Number ("PIN") for use with your Card in
accessing your line of credit at ATMs, these numbers are issued to you for your security purposes. These numbers are confidential
and should not be disclosed to third parties. You are responsible for safekeeping your PIN. You agree not to disclose or otherwise
make available your PIN to anyone not authorized to sign on your Account. To keep your Account secure, please do not write your
PIN on your Card or keep it in the same place as your Card.
12. REWARDS PROGRAM. The Rewards Program ("Program") associated with your Account is the reward program established and
maintained by the Credit Union with a third-party service provider selected by the Credit Union. In addition to the other terms and
conditions of this Agreement, the terms and conditions set forth in the Rewards Program Agreement provided to you with this
Agreement shall also apply to your Account. The Credit Union reserves the right to terminate the Program or to change the terms and
conditions of the Program at any time without prior notice. This means the Credit Union may change, among other things, the rules
regarding redemption of points or the restrictions on the use of rewards. The Credit Union also has the right to add or delete benefits
and services to your Account at any time.
13. LOAN PROTECTION. Loan Protection coverage is not required for any extension of credit under this Agreement. However, you
may purchase any loan protection available through us and have the monthly fee added to your outstanding balance as purchases. If
you elect to do so, we will give you the necessary disclosures and documents separately.
14. DEFAULT. You will be in default under this Agreement if any of the following occur: (a) Any Minimum Monthly Payment is not
made when due; (b) You become insolvent, bankrupt, or you die; (c) You violate any part of this Agreement, or any other agreement
with us; or (d) If we reasonably deem ourselves insecure with respect to your Account. Upon default, we may declare the entire unpaid
balance immediately due and payable, and you agree to pay that amount plus any attorney's fees and costs we incur, including fees
and costs in any appeal or bankruptcy proceeding. We can delay enforcing any right under this Agreement without losing that right or
any other right. We will notify you in writing of any such action as soon as practical if it occurs.
15. GOVERNING LAW. This Agreement will not take effect until it is approved by us. This Agreement shall be governed by the laws
of the State of Washington.
16. SEVERABILITY. If any provision of this Agreement is held invalid, the remaining provisions that are severable shall remain in
effect.
17. LOSS OR THEFT OF CARD. You agree to notify us immediately of the loss, or the theft, or the use without your permission, of
any Card or other credit instrument or device which we supply to you. You may be liable for the unauthorized use of your card if we
reasonably determine your handling of your Card or account was negligent or fraudulent. You will not be liable for unauthorized use
which occurs after you notify: Red Canoe Credit Union, PO Box 3020, Longview, WA 98632, Telephone: (800) 562-5611, orally or in
writing of loss, theft, or possible unauthorized use. In any case, your liability shall not exceed $50.
18. CREDIT INFORMATION/FINANCIAL STATEMENTS. You authorize us to release information to others (e.g., credit bureaus,
merchants, and other financial institutions) regarding the status and history of your Credit Line. You agree to provide us, at any time
we deem necessary, with a current financial statement and/or updated credit information upon request. We may investigate your credit
directly or through a credit reporting agency.
19. AMENDMENTS. We reserve the right to change any terms or conditions of this Agreement at any time, to the extent permitted by
applicable law. We will notify you of the changes to this Agreement as required by law.
20. BILLING ERRORS NOTICE, YOUR CREDIT CARD BILLING RIGHTS. Keep this document for future use. This notice tells you
about your rights and our responsibilities under the Fair Credit Billing Act.
What To Do If You Find A Mistake On Your Statement. If you think there is an error on your statement, write to us at: Red Canoe
Credit Union, PO Box 3020, Longview, WA 98632. In your letter, give us the following information:
•
•
•
•
•
•

Account information: Your name and account number.
Dollar amount: The dollar amount of the suspected error.
Description of problem: If you think there is an error on your bill, describe what you believe is wrong and why you believe it is
a mistake.
You must contact us:
Within 60 days after the error appeared on your statement.
At least 3 business days before an automated payment is scheduled, if you want to stop payment on the amount you think is
wrong.

You must notify us of any potential errors in writing. You may call us, but if you do, we are not required to investigate any potential
errors and you may have to pay the amount in question.
What Will Happen After We Receive Your Letter. When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that we received your letter. We will also tell you if we have already
corrected the error.
2. Within 90 days of receiving your letter, we must either correct the error or explain to you why we believe the bill is correct.
While we investigate whether or not there has been an error:
•
•

We cannot try to collect the amount in question or report you as delinquent on that amount.
The charge in question may remain on your statement, and we may continue to charge you interest on that amount.

•
While you do not have to pay the amount in question, you are responsible for the remainder of your balance.
•
We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
If we made a mistake: You will not have to pay the amount in question or any interest or other fees related to that amount.
If we do not believe there was a mistake: You will have to pay the amount in question, along with applicable interest and fees.
We will send you a statement of the amount you owe and the date payment is due. We may then report you as delinquent if
you do not pay the amount we think you owe.
If you receive our explanation but still believe your bill is wrong, you must write to us within 10 days telling us that you still refuse to
pay. If you do so, we cannot report you as delinquent without also reporting that you are questioning your bill. We must tell you the
name of anyone to whom we reported you as delinquent, and we must let those organizations know when the matter has been settled
between us. If we do not follow all of the rules above, you do not have to pay the first $50 of the amount you question even if your bill is
correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases. If you are dissatisfied with the goods or services that you have
purchased with your credit card, and you have tried in good faith to correct the problem with the merchant, you may have the right not
to pay the remaining amount due on the purchase. To use this right, all of the following must be true:
1. The purchase must have been made in your home state or within 100 miles of your current mailing address, and the
purchase price must have been more than $50. (Note: Neither of these are necessary if your purchase was based on an
advertisement we mailed to you, or if we own the company that sold you the goods or services.)
2. You must have used your credit card for the purchase. Purchases made with cash advances from an ATM or with a check
that accesses your credit card account do not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with the purchase, contact us in writing at the above address. While we
investigate, the same rules apply to the disputed amount as discussed above. After we finish our investigation, we will tell you our
decision. At that point, if we think you owe an amount and you do not pay, we may report you as delinquent.
•
•

21. Military Lending Disclosures. The following disclosures are provided and apply to the borrower who is a Covered Member as
described below.
a. Borrower Certification of Active Duty. By requesting a Credit Card each borrower certifies to the Credit Union that
borrower: (i) is a Covered member as a member of the Armed Forces who is currently serving on active duty (under a call or order not
less than 30 days) Active Guard or Reserve duty; and (ii) borrower is the Covered Member or is a dependent of the Covered Member.
Borrower(s) authorize the Credit Union to verify their status as a Covered Member or dependent by obtaining information from the
database of the Department of Defense or from a consumer report obtained from a consumer reporting agency.
b. Military Annual Percentage Rate. Federal law provides important protections to members of the Armed Forces and their
dependents relating to extensions of consumer credit. In general, the cost of consumer credit to a member of the Armed Forces and
his or her dependent may not exceed an annual percentage rate of 36%. This rate must include, as applicable to the credit transaction
or account: the costs associated with credit insurance premiums; fees for ancillary products sold in connection with the credit
transaction; any application fee charged (other than certain application fees for a credit card account); and any participation fee
charged (other than certain participation fees for a credit card account).
c. Payment Obligation. Your payment obligation under your Credit Card Account is set forth in Sec. 1 and 4 above in the Credit
Card Agreement.
d. Security Interest. The Credit Union’s security interest in all your Credit Union shares or deposits pursuant to the Credit Card
Agreement will not apply your Credit Card Account. A security interest in shares or deposits granted in connection with any other
credit card account, loan or line of credit does not secure the Credit Card Account identified above, in spite of any provision that
collateral securing one loan secures all of your other Credit Union obligations. However, if you establish a deposit or share account
specifically in connection with your Credit Card Account, funds deposited in that account after you establish the Credit Card Account
are subject to our security interest as set forth above in the Credit Card Agreement.
e. Credit Union Toll-Free Telephone Number (800) 562-5611. Call this number for verbal information about the Military
Annual Percentage Rate and your payment obligation.
22. ACKNOWLEDGMENT. You understand and agree to the terms and conditions in this Agreement and the Fair Credit Billing
Notice. You acknowledge that you have received a copy of this Agreement and Disclosure and the Fair Credit Billing Notice. This
Agreement is a final expression of the agreement between you and the Credit Union.

RED CANOE CREDIT UNION

VISA Platinum Rewards Credit Card Account Disclosures
INTEREST RATES AND INTEREST CHARGES
Annual Percentage Rate (APR) for
Purchases and Cash Advances

4.90% Introductory APR for 6 months from date of account opening.
After that, your APR will be 9.90%-20.90% based on

your

creditworthiness.
Annual Percentage Rate (APR) for
Balance Transfers

Your APR will be 8.90%-20.90% when you open your account based on your
creditworthiness

Penalty APR and When it Applies

20.90%
This APR may be applied to your account if you make a late payment.
How Long Will the Penalty APR Apply? If your APRs are increased for this
reason, the Penalty APR will apply until you make six consecutive minimum
payments when due.

Paying Interest

Your due date is approximately 25 days after the close of each billing cycle.
We will not charge any interest on the portion of the purchases balance that
you pay by the due date each month. We will begin charging interest on cash
advances and balance transfers on the transaction date.

For Credit Card Tips from the
Consumer Financial Protection Bureau

To learn more about factors to consider when applying for or using a credit
card, visit the website of the Consumer Financial Protection Bureau at
www.consumerfinance.gov/learnmore

FEES
Annual Fee

None

Transaction Fees

None

Penalty Fees
•
•

Late Payment Fee
Returned Payment Fee

$25.
Up to $25.

How We Will Calculate Your Balance: We use a method called “average daily balance” (including new purchases).
Loss of Introductory APR: We may end your introductory APR and apply the Penalty APR if you make a late payment.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your
Credit Card Account Agreement.
These Account Disclosures for the VISA Platinum Rewards Credit Card are part of and integrated with your VISA Platinum
Rewards Credit Card Agreement with Red Canoe Credit Union. We reserve the right to amend the VISA Platinum
Rewards Credit Card Agreement as permitted by law. The above rates and fees are effective as of _______________.

Page 1 - VISA PLATINUM REWARDS CREDIT CARD ACCOUNT AGREEMENT AND DISCLOSURE
©2018 Farleigh Wada Witt

